     April 19, 2006




Financial Management

Report on DoD Compliance with the
Prompt Payment Act on Payments to
Contractors
(D-2006-076)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
EFT                   Electronic Funds Transfer
DFAS                  Defense Finance and Accounting Service
MOCAS                 Mechanization of Contract Administrative Service
                             INSPECTOR GENERAL
                           DEPARTMENTOFDEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                            April 19,2006
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE, HEADQUARTERS
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE, COLUMBUS
SUBJECT: Report on DoD Compliance with the Prompt Payment Act on Payments to
         Contractors (Report No. D-2006-076)

      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Finance and Accounting Service Columbus comments were partially
responsive. We request additional comments on Recommendations a.3 and b. 1. We
request that the Central Site Deputy Director, Defense Finance and Accounting Service
Columbus provide comments on Recommendations a.3 and b.1 by May 19,2006.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audcolu@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mi. James L. Kornides at (614) 75 1-1400 ext. 21 1 or Mr. Mark Starinsky at
(614) 75 1-1400 ext. 23 1. For the report distribution, see Appendix C. The team
members are listed inside the back cover.
                                By direction of the D,eputy Inspector General for Auditing:




                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                 Service
          Office of the Inspector General of the Department of Defense
Report No. D-2006-076                                                        April 19, 2006
   (Project No. D2005-D000FJ-0026.000)




                DoD Compliance with the Prompt Payment Act
                       on Payments to Contractors

                                  Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for processing
contractor payments in accordance with the Prompt Payment Act should read this report.
It discusses internal controls that ensure payments are made on time and that the
appropriate interest is paid.

Background. The Prompt Payment Act of 1998, section 3903, title 31, United States
Code (31 U.S.C. 3903), requires agencies to make payment no later than 30 days after an
invoice is received or by the payment date established in the contract. The Prompt
Payment Act also requires an agency to make payment no earlier than 7 days before the
required payment date or earlier as determined by the agency on a case-by-case basis. If
an invoice is paid later than 30 days after the invoice is received or later than the payment
date established in the contract, the Government is required to pay interest to the
contractor. The Prompt Payment Act governs a large portion of the payments made at
Defense Finance and Accounting Service Columbus. In FY 2004, Defense Finance and
Accounting Service Columbus made annual payments to contractors subject to the
Prompt Payment Act totaling $34.7 billion.

Results. Defense Finance and Accounting Service Columbus paid the majority of the
contractor invoices it received in FY 2004 in accordance with the requirements of the
Prompt Payment Act. However, in some instances it made payments without using the
correct receipt, payment, or due dates on the invoices. These errors occurred for a
projected 61,470 (10.7 percent) of the 577,142 invoices paid; this resulted in incorrect
interest payments and noncompliance with certain provisions of the Prompt Payment Act.
We calculated that Defense Finance and Accounting Service Columbus incurred a
projected $850 thousand in interest errors through overpayments and underpayments in
FY 2004. We also determined that Defense Finance and Accounting Service Columbus
made early payments that contributed to $919 thousand in lost Federal interest. Defense
Finance and Accounting Service Columbus needs to improve controls over the process of
calculating payment due dates and calculating interest payments to contractors. See the
Finding section of the report for the detailed recommendations.

Management Comments and Audit Response. The Central Site Deputy Director,
Defense Finance and Accounting Service Columbus, concurred and planned to update the
Prompt Pay process, including changing the Mechanization of Contract Administration
Service process, and providing refresher training to DFAS personnel to ensure that
invoices are paid in accordance with the Prompt Payment Act. In general, the comments
were responsive; however, we request that the Central Site Deputy Director, Defense
Finance and Accounting Service Columbus provide additional comments regarding his
proposed actions to provide his staff with refresher training and make a change in the
payment system. We request that the Central Site Deputy Director, Defense Finance and
Accounting Service Columbus provide comments on the final report by May 19, 2006.
See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                          ii
Table of Contents

Executive Summary                                       i

Background                                              1

Objectives                                              1

Managers’ Internal Control Program                      2


Finding
     Compliance with the Prompt Payment Act             3

Appendixes
     A. Scope and Methodology                          18
           Prior Coverage                              18
     B. Statistical Methods                            19
     C. Report Distribution                            21

Management Comments
     Defense Finance and Accounting Service Columbus   23
Background
    Defense Finance and Accounting Service (DFAS) Columbus records indicated its
    Contract Pay Product Line division paid about $115 billion to contractors in
    FY 2004. Of the $115 billion in contractor payments, DFAS provided
    documentation that showed that about $34.7 billion met the cash management
    requirements of the Prompt Payment Act of 1998.

    The Prompt Payment Act of 1998, section 3903, title 31, United States Code
    (31 U.S.C. 3903), requires that the Government pay invoices 30 days after it
    receives them or by the payment date established in the contract. The Prompt
    Payment Act also requires an agency to make payment no earlier than 7 days
    prior to the required payment date. The agency can allow earlier payment of
    invoices on a case-by-case basis. If an invoice is paid later than 30 days after it is
    received or later than the payment terms established in the contract, the
    Government is required to pay interest to the contractor.

    DFAS Columbus and Mechanization of Contract Administration Service
    (MOCAS). The Contract Pay Product Line uses MOCAS, an electronic
    integrated system for contract administration. MOCAS automatically calculates
    the due date of a payment based on the terms in the contract and upon the receipt
    of a proper invoice. MOCAS is designed to hold the invoice for payment until
    7 days prior to the payment due date. On that day, MOCAS releases the invoice
    for payment. If the date MOCAS processes the invoice occurs after the
    MOCAS-calculated due date, MOCAS should generate and send a report to the
    DFAS Columbus Prompt Payment Interest Branch for further review.

    Prompt Payment Interest Branch. The DFAS Columbus Prompt Payment
    Interest Branch (Interest Branch) reviews all invoices that MOCAS shows as late
    to determine if interest is due. Once DFAS personnel make the determination that
    interest is due, they enter the required information in the Prompt Payment
    Application System, which then makes the interest payment. Documentation of
    the interest payment is then scanned into an Electronic Data Management system.


Objectives
    The audit objective was to determine whether DFAS Columbus was properly
    paying contractor invoices that were subject to the Prompt Payment Act and
    whether DoD was properly following the Prompt Payment policy set forth by the
    Office of Management and Budget. We also reviewed the management control
    program as it related to the overall objective. See Appendix A for a discussion of
    the scope and methodology and prior coverage related to the objective.




                                          1
Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS Columbus management controls over the compliance with the
    Prompt Payment Act. Specifically, we determined whether DFAS Columbus
    controls prevented noncompliance with the Prompt Payment Act. We also
    reviewed the adequacy of management’s self-evaluation of those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DFAS Columbus, as defined by DoD Instruction 5010.40.
    The DFAS Columbus management controls for complying with the Prompt
    Payment Act were not adequate. The recommendations in this report, if
    implemented, will correct the identified weaknesses. A copy of the report will be
    provided to the senior officials responsible for management controls in DFAS
    Columbus.

    Adequacy of Management’s Self-Evaluation. DFAS officials identified the
    compliance with the Prompt Payment Act as an assessable unit. However, DFAS
    did not identify any material control weaknesses related to the assessable unit
    because the scope of their review was not adequate.




                                        2
           Compliance with the Prompt Payment
           Act
           DFAS Columbus paid most of the contractor invoices it received in
           FY 2004 in accordance with the requirements of the Prompt Payment Act.
           However, in some instances DFAS personnel or MOCAS, its contractor
           payment system, generated errors by not selecting the correct invoice
           receipt, payment, or due date. These problems occurred for a projected
           61,470 (10.7 percent) of the 577,142 invoices paid. These errors resulted
           in incorrect payments of interest and noncompliance with provisions of
           the Prompt Payment Act. DFAS Columbus did not have the necessary
           controls in place or controls were not operating effectively to ensure
           provisions of the Prompt Payment Act were met. We calculated that
           DFAS Columbus incurred a projected $850 thousand in interest errors
           through overpayments and underpayments in FY 2004. We also
           determined that DFAS Columbus made early payments that contributed to
           $919 thousand in lost Federal interest. The interest errors and lost Federal
           interest occurred as a result of the weak control environment (see
           Appendix B for statistical methodology and projection estimates).


Sample Selection to Determine Compliance with the Prompt
  Payment Act.
    Total FY 2004 Payments (Commercial Pay Product Line). We received a
    database from DFAS Columbus that contained all cash managed payments it
    made in FY 2004 through MOCAS. We classified the payments into three
    categories: invoices that DFAS Columbus potentially paid early based on the
    receipt and processed date, invoices that DFAS Columbus appeared to have paid
    on time based on the receipt and processed date, and invoices that DFAS
    Columbus appeared to have paid late by no more than one year. Table 1 shows
    that, according to MOCAS records, DFAS Columbus paid the majority of the
    invoices on time. The On-Time population comprises 85 percent of the number
    of invoices and 82 percent of the disbursement amounts. However, a sizeable
    number of invoices appear to have been paid early or late.

                  Table 1. Number of Invoices DFAS Columbus Paid in
                               FY 2004 Using MOCAS

                                                Number of         Dollar Value
                   Category                      Invoices          (in billions)
                   Early                           75,211             $ 4.5
                   On Time                        488,489              28.4
                   Late (less than a year)         13,442                1.8
                   Total                          577,142             $34.7




                                        3
    We statistically selected 300 sample payments from each category for analysis.
    We tested the 900 sample items to determine if DFAS Columbus complied with
    selected requirements of the Prompt Payment Act. Specifically, we determined
    whether DFAS Columbus:

       •   used the proper receipt date,

       •   properly calculated the payment due date,

       •   properly paid the invoice early to take a discount or DFAS personnel
           obtained approval for an early payment,

       •   paid the invoice late. In this case, we evaluated whether DFAS paid the
           correct amount of interest to the contractor.


Noncompliance with the Prompt Payment Act
    DFAS Columbus did not always make payments in compliance with provisions of
    the Prompt Payment Act. Specifically, DFAS Columbus sometimes used an
    invoice receipt date that violated the Prompt Payment Act. In addition, DFAS
    Columbus sometimes improperly calculated the number of days the Government
    kept an improper contractor invoice before returning it to the contractor. Further,
    DFAS Columbus paid some invoices early and without the proper approval
    required by the Prompt Payment Act. Most of these errors occurred in the
    samples of invoices that showed early or late payments.

    Proper Invoice Receipt Date. DFAS Columbus personnel selected the wrong
    date from dates printed on the invoice or failed to use the later of acceptance or
    invoice receipt date for 96 sample invoices. The Prompt Payment Act requires
    that the payment terms start on the day that the Government receives a proper
    invoice or the date the Government accepts the goods or services, whichever is
    later. For example, if the contractor submitted an invoice on December 1, 2004,
    but the Government did not receive the goods until December 15, 2004, the
    payment terms would start on December 15, 2005. The use of an improper
    receipt date did not always result in an over or under payment of interest, or early
    payment of an invoice, but it did increase the risk that these errors could occur.

    For example, if the proper invoice receipt date was November 1, and DFAS
    Columbus used an incorrect receipt date of November 15, October 15, or
    November 3, the effect of the incorrect receipt date would be different. The
    following table demonstrates how the incorrect receipt date could result in a
    payment that violates the Prompt Payment Act.




                                           4
   Table 2. Examples of Results of Selecting an Incorrect Invoice Receipt Date
Actual                                        Incorrect
Invoice      Actual                            Invoice       Payment
Receipt     Payment         Allowable          Receipt         Made
Date        Due Date     Payment Window         Date         Window         Result          Effect
Nov. 1      Dec. 1       Nov. 25- Dec. 1      Nov. 15       Dec. 8-15       Late            Interest Due
                                                                                            and Not Paid
Nov. 1      Dec. 1       Nov. 25- Dec 1       Oct. 15       Nov. 8-15       Early           Interest Lost
Nov. 1      Dec. 1       Nov. 25-Dec.1        Nov. 3        Nov. 28-        On Time if      No Effect
                                                            Dec. 3          Paid Nov. 28-
                                                                            Dec. 1
                                                                            Late if Paid    Interest Due
                                                                            Dec. 2-3        and Not Paid



  Processing Improper Invoices. DFAS Columbus sometimes miscalculated the
  payment due date because it received an improper invoice from the contractor.

  The Prompt Payment Act states:
          When an invoice is determined to be improper, the agency shall return
          the invoice. . . no later than 7 days after receipt. When an agency fails
          to make notification of an improper invoice within seven days. . . the
          number of days allowed for payment of the corrected proper invoice
          will be reduced by the number of days between the seventh day. . . and
          the day notification was transmitted to the vendor [contractor].
          Calculation of interest penalties, if any, will be based on an adjusted
          due date reflecting the reduced number of days allowable for payment.

  DFAS Columbus tracked the receipt and contractor notification of improper
  invoices in the MOCAS system by assigning an “E” to the “Remarks” field
  associated with the invoice. They also assigned a code in MOCAS to explain
  why the invoice was improper. In accordance with the Act, DFAS was granted
  up to 7 days to notify the contractor of an improper invoice without adjusting the
  invoice due date. If DFAS did not notify the contractor within 7 days, it was
  required to reduce the payment due date by the number of days it took to notify
  the contractor of the improper invoice less the 7 days allowed by the Act. For
  19 sample items DFAS incorrectly calculated the number of days that it held an
  invoice for review.

  For example, if an improper invoice was received on November 1, 2004, and
  returned to the contractor on November 15, 2004, DFAS Columbus should reduce
  the payment due date by 8 days (15 days to process the invoice minus the 7 days
  allowable by the Prompt Payment Act). However, if DFAS did not factor in the
  improper invoice, it would calculate the payment due date later than required and
  possibly make a late payment without paying interest. For these 19 sample
  invoices, the miscalculation did not always result in a payment of an invoice



                                             5
    earlier than allowable by the Prompt Payment Act, but the problem did increase
    the risk that late payments would occur.

    Calculating Payment Date and Payment Due Date. The Prompt Payment Act
    states that the payment due date is the date on which payment should be made. It
    is generally 30 days after the receipt of a proper invoice. The Prompt Payment
    Act defines a payment date as the date on which a check for payment is dated or
    as the date of an electronic fund transfer (EFT) payment (settlement date). The
    settlement date is further defined as the date on which an EFT payment is credited
    to the contractor’s financial institution.

    Of the 900 sample items, DFAS Columbus incorrectly calculated the due dates of
    69 sample invoices and incorrectly calculated the payment dates for 35 sample
    invoices. Although the incorrect calculation did not always result in an error in
    the calculation of interest, it did increase the risk that an error could occur.

    Releasing an Invoice Early. The Prompt Payment Act states that an agency
    must make payments no more than 7 days prior to the payment due date, unless
    the agency head or designee has determined (on a case-by-case basis) that earlier
    payment is necessary. According to the Prompt Payment Act, this authority must
    be used cautiously, weighing the benefits of making a payment early against the
    good stewardship inherent in effective cash management practices.

    Although required by the Prompt Payment Act, DFAS Columbus could not
    provide evidence that the agency head or designee had determined, on a
    case-by-case basis, that early payment of 58 sample items was necessary. DFAS
    Columbus personnel and its invoice payment system made an early payment for
    58 sample invoices without this documentation.


Controls over Compliance with the Prompt Payment Act
    We calculated that DFAS did not comply with the Prompt Payment Act on a
    projected 61,470 invoices. We concluded the noncompliance resulted from lack
    of adequate internal controls. Specifically, the Interest Branch did not adhere to
    controls over analyzing interest due and making interest payments. Additionally,
    certain MOCAS systems controls were not in place, controls over the input of
    invoice information were not adequate, and controls over the early release of
    invoices were not operating effectively.




                                         6
Table 3 shows the number of invoices paid in FY 2004 that we estimate were
affected by these control weaknesses.

         Table 3. Number of Invoices Affected by Control Weaknesses

      Control Weakness                                               Invoices Paid
      Interest Branch errors                                                4,705
      Incorrect MOCAS system programming                                   15,871
      Determining the invoice receipt date                                 24,530
      Preventing early release of invoices                                 18,723

    Note: The 61,470 invoices with projected errors is not the sum of the errors
     associated with each control weakness because each invoice could have more than
     one error. See Appendix B for more details on the projection.



Interest Branch Controls. The Interest Branch had several inadequate controls
in place which caused DFAS to be in noncompliance with the Prompt Payment
Act. The Interest Branch incorrectly analyzed 4,705 invoices as a result of these
inadequate controls. Table 4 shows the three primary Interest Branch control
weaknesses related to the 300 late sample items.

                       Table 4. Control Weaknesses in the
                                Interest Branch

                                                                       Number of
          Control Weakness                                             Invoices
          Noncompliant policy to extend weekend and
             holiday due dates                                                49*
          Inadequate policy to determine EFT payment
             dates                                                            32*
          Inadequate controls to prevent incorrect
            interest payments                                                 31

        *For 7 invoices, the Interest Branch both incorrectly adjusted the due date
          and incorrectly determined the payment date.



        Policy to Extend Due Date. DFAS Columbus underpaid interest on
49 invoices because an Interest Branch unwritten policy caused personnel to
improperly move payment due dates from a weekend or holiday to the next
business day. This DFAS policy was not in compliance with the Prompt Payment
Act because it extended due dates beyond the 30-day limit established in the law.
The DFAS policy will also result in an underpayment of interest when invoices
are paid late.



                                          7
The Prompt Payment Act states that if the payment due date is on a weekend or
holiday and payment is made the following business day, no interest is due. For
example, if the payment due date is July 3, 2004 (a Saturday), and payment is
made on July 6, 2004 (the next business day, a Tuesday), there is no interest due.

However, the Prompt Payment Act does not permit a recalculation of the due date
if the due date falls on a weekend or holiday and payment is made more than one
business day after the weekend or holiday (when calculating the number of days
late). For example, if the payment due date was on July 3, 2004 (a Saturday), and
the invoice was paid on July 15, 2004 (a Thursday), then interest should have
been calculated on the 12 days. However, the Interest Branch policy moved the
due date to July 6, 2004 (the next business day), which resulted in interest
calculated on just 9 days late. Therefore, the Interest Branch policy underpays
interest to the contractor when the due date falls on a weekend or holiday.

       Determining Payment Date. The Interest Branch policy for calculating
the payment date for EFT payments resulted in the underpayment of interest on
32 invoices. The Prompt Payment Act states that the payment date for an EFT
payment is the settlement date, which is when the payment is applied to the
contractor’s bank account. MOCAS processed an EFT payment as the date
DFAS sent the payment information to the financial institution, usually the
business day before the payment was applied to the contractor’s bank account.
The Interest Branch routinely added one day to the MOCAS-processed date to
determine the EFT payment date.

This policy created an underpayment of interest for 32 sample invoices because
the MOCAS-processed payment date fell on a Friday or the day before a holiday.
When the Interest Branch moved the EFT payment date to the next day, they did
not calculate the weekend or holiday so they did not use the next business day.
For example, in one instance DFAS Columbus processed the invoice for EFT
payment on February 27, 2004 (a Friday). When the Interest Branch reviewed the
invoice, they used February 28, 2004 (a Saturday), as the payment date. The
Interest Branch should have used March 1, 2004 (a Monday), as the payment
date. Because of the incorrect payment date, the Interest Branch calculated the
interest on two fewer days and underpaid the contractor $230.37. In instances
when the MOCAS-processed date occurred on a Friday or holiday, the Interest
Branch policy to move the payment date just one day resulted in an underpayment
of interest. This practice was not in accordance with the provisions of the Prompt
Payment Act.

        Calculating Interest Using Correct Data. The Interest Branch personnel
selected incorrect information, such as the incorrect invoice receipt date, in
determining the interest calculation for 31 invoices. They used an incorrect
receipt date although the Interest Branch provided detailed training on selecting
and using the correct date. The training information adhered to the provisions of
the Prompt Payment Act. In addition, the Interest Branch required analysts to
review the interest documentation before payment to ensure that the receipt date
and other data were correct. These controls should have prevented the majority of



                                     8
instances where the Interest Branch paid an incorrect amount of interest but did
not.

In some cases, when another Government agency was the designated receiving
office, the Interest Branch used the invoice receipt date, as opposed to the later
acceptance date, or used the MOCAS receipt date. We asked the Interest Branch
to perform further review on 22 of the 31 sample invoices that included incorrect
information. The Interest Branch agreed with our analysis for 13 of the
22 invoices; personnel took action on 9 of those invoices to make additional
interest payments of $4,496.63 and issue a credit of $349.22 to be collected for
overpayments. For 4 of the 13 invoices, Interest Branch personnel took no
additional action. They indicated that at the time they reviewed these 4 invoices,
they had followed a DFAS policy related to the calculation of improper invoices
that they later discontinued. These invoices need additional action because, while
the Interest Branch might have previously followed DFAS policy at the time,
DFAS policy was not in accordance with the Prompt Payment Act.

For another 18 invoices, Interest Branch personnel stated that the interest
payments were processed in accordance with the Prompt Payment Act or that they
had not reviewed the interest payments further. However, we continue to
disagree that these invoices were paid in accordance with the Prompt Payment
Act. Personnel need training that emphasizes calculating the correct invoice date
and using the correct receipt date when calculating interest due.

MOCAS Controls. Certain MOCAS controls to ensure compliance with the
Prompt Payment Act were not in place and operating effectively. Specifically, we
projected that 15,871 invoices were affected by MOCAS control weaknesses
which did cause, or could have caused, DFAS Columbus to be in noncompliance
with the Prompt Payment Act. Table 5 shows a breakdown of the major MOCAS
control weaknesses by sample results.

                Table 5. Control Weaknesses in MOCAS

                                                      Number of
                                                   Invoices from
          Control Weakness                              Samples
          Calculating correct number of days
            related to receiving and review an
            improper invoice                                   12
          Identifying an invoice that requires
        an
            interest payment                                   21
          Calculating the later of acceptance
            versus invoice receipt date                        16
          Unexplained calculations                             21
          Determination of discounts                            5




                                     9
             Calculating Correct Payment Due Dates When a Contractor Has
      Previously Submitted Improper Invoices. MOCAS improperly calculated the
      payment due date on 12 invoices because it did not properly subtract all the days
      associated with multiple improper invoices submitted by the contractor. Improper
      invoices are identified with E-codes in MOCAS, and the MOCAS system is
      designed to then take any number of days over 7 days and subtract them from the
      due date calculated for the proper invoice.

      MOCAS system personnel indicated that MOCAS was designed to calculate a
      due date based on only one improper invoice submitted by the contractor.
      Therefore, if a contractor submitted several improper invoices that were returned
      outside of the 7 day allowable time frame, MOCAS would not reduce the 30 day
      payment due date by all of the days it should. More than one improper invoice
      was submitted on eight sample invoices. This resulted in DFAS not properly
      identifying invoices that were paid late and not researching the interest payment
      due.

      Table 6 shows how MOCAS incorrectly calculated the due date when there were
      two improper invoices received. Based on the MOCAS calculated due date as
      shown in the table, DFAS Columbus paid the invoice on November 5, 2003,
      which was actually 10 days later than allowable by the Prompt Payment Act
      (October 26, 2003, through November 5, 2003).



                          Table 6. Improper Invoice Calculation
                                                     Extra
                                                    Days to
                      Improper          Improper    Reduce        Proper
                       Invoice           Invoice    the Due       Invoice
                      Received          Returned      Date        Received    Due Date

Calculation as      April 21, 2003   May 14, 2003      16     October 20,    October 26,
required by the                                               2003           2003
Prompt Payment      June 24, 2003    July 9, 2003       8
Act
Total Extra Days                                       24



MOCAS calculation   April 21, 2003   May 14, 2003       0     October 20,    November 11
                                                              2003           , 2003
                    June 24, 2003    July 9, 2003       8

Total Extra Days                                        8




                                              10
In addition, for four invoices, MOCAS improperly subtracted days from the
payment due date in circumstances when an improper invoice was received after
the proper invoice. Contractors sometimes submit invoices after DFAS has
received a proper invoice. This contributed to DFAS Columbus making a
payment earlier than allowable by the Prompt Payment Act.

        Identifying Invoices that Require an Interest Payment. MOCAS did
not identify 21 sample invoices as late that it should have identified as late and
provided to the Prompt Payment Interest Branch for further review. Specifically,
MOCAS should identify an invoice as late if the Processed Date field is later than
the Due Date field. However, in six instances when the processed date was later
than the due date, MOCAS did not identify these invoices as paid late. In
addition, the Processed Date field in MOCAS was generally not the payment date
as defined by the Prompt Payment Act. The MOCAS processed date was the date
the invoice was processed for payment. Because the actual paid date for EFT
payments is defined by the Prompt Payment Act as the day the payment is
credited to the contractor’s banking institution, invoices that are technically one
day late will not be identified in MOCAS as late. We identified 15 instances
where this occurred. If MOCAS does not identify an invoice as late, then DFAS
has a risk that required interest will not be paid.

       Calculating the Later of Acceptance and Invoice Receipt Date.
MOCAS incorrectly calculated the payment due date by not using the later of the
invoice receipt date or acceptance date for 16 sample invoices. MOCAS
generally calculated the later of acceptance and invoice receipt correctly, but not
always. We discussed this weakness with DFAS systems personnel. They could
not explain why the incorrect receipt date was used in calculating the due date.

        Unexplained Calculations. MOCAS did not correctly calculate the due
date for 24 sample invoices. For example, MOCAS calculated the due date on
one invoice 20 days after the invoice receipt date instead of the standard 30 days.
We could not determine why MOCAS did not correctly calculate the due date.
DFAS Columbus was also unable to provide an explanation for this error. DFAS
Columbus needed to determine how the due dates were calculated. If MOCAS
does not correctly calculate the payment due date, there is a risk that DFAS will
not pay the invoice in accordance with the Prompt Payment Act.

        Determination of Discounts. MOCAS calculation of discounts and early
release based on discounts was not adequate and did not comply with the Prompt
Payment Act on five sample invoices. Two invoices related to a contract that had
prior interim financing payments. MOCAS calculated the discount based on the
total invoice price, not the amount the contractor should have been paid, which
resulted in excess credits taken from the contractor. In one instance, MOCAS
paid an invoice within the discounted time frame but did not take the correct
discount. In two other instances, MOCAS applied the discount outside the
allowable time frame. If MOCAS continues to take discounts outside of the
allowable time frame, DFAS will continue to violate the Prompt Payment Act.


                                     11
DFAS should ensure that MOCAS properly identifies discounts in the allowable
time frame and calculates the discount accurately.

Invoice Receipt Date Controls. Certain invoice receipt date input controls were
in place to ensure the proper invoice receipt date was used. However, the controls
were not operating effectively. We projected that DFAS Columbus entered
incorrect invoice receipt dates for 24,530 invoices.

Table 7 shows the reasons DFAS did not select the correct receipt date to enter
into MOCAS for 76 of the 900 sample items.

         Table 7. Invoice Receipt Control Weaknesses

                                                    Number of
   Causes of Error                                   Invoices
   Selecting an incorrect government
     representative receipt date                            18
   Selecting an incorrect faxed invoice
     date                                                   35
   Selecting an incorrect
    scanned/electronic invoice                              23


       Selecting an Incorrect Government Representative Receipt Date. For
18 sample invoices where the official government representative was not DFAS
Columbus, DFAS used the date it received the invoice from the government
representative, not the date the government representative received the invoice. If
the government representative did not date the invoice, then the contractor-
provided invoice date is the proper invoice receipt date. For these 18 invoices,
DFAS Columbus did not select the proper date. Instead, in most instances, the
DFAS Columbus receipt date was used. This control weakness will cause
MOCAS to calculate a due date later than acceptable and could result in a late
payment that MOCAS would not flag for review by the Prompt Payment Interest
Branch. It will also result in an underpayment of interest to the contractor.

        Selecting an Incorrect Faxed Invoice Receipt Date. For 35 sample
invoices, the fax header date did not match the MOCAS receipt date. Personnel
from the two directorates in DFAS which enter receipt dates (Entitlement and
Tier II) stated that they do not use the fax header information because it comes
from the sender and they have no assurance that the time and date information
was correct. According to DFAS Columbus, Electronic Data Management
automatically assigns the date when the invoice is scanned and then populated
MOCAS with the receipt date. They could provide no assurance that the faxed
invoices were scanned by the day of receipt. They stated that MOCAS will
sometimes stamp a date on a faxed invoice, but not often. This practice does not
provide enough reliability that the MOCAS date is correct.

DFAS reviewed 16 of the faxed invoices that had different fax header dates than
MOCAS and agreed that seven of the fax header dates were correct, as opposed to
the MOCAS receipt date. For two of the invoices where DFAS Entitlement


                                    12
    personnel did not agree the fax header date was correct, the Interest Branch said
    that the fax header date was correct.

    DFAS Columbus needs additional controls over the receipt of faxed invoices to
    ensure that the faxed invoices are properly stamped with the actual receipt date,
    not the date scanned by MOCAS.

           Selecting an Incorrect Scanned or Electronic Invoice Receipt Date.
    The MOCAS receipt date did not match the Electronic Data Management scanned
    date on the hard copy invoice or electronic invoice receipt date on 23 of the
    sample invoices. Entitlement and Tier II personnel stated that the discrepancies
    occurred because the invoice was “restarted” in MOCAS and the incorrect receipt
    date was selected. An invoice can be restarted by Customer Service or
    Entitlement directorate personnel when a contractor has questions about the
    invoice receipt date. DFAS Columbus needs to provide additional training so that
    the proper receipt date is selected for restarted invoices.

    Early Release of Invoices Without Proper Controls. Controls over the early
    release of invoices from the MOCAS system were not operating effectively.
    Based on 87 sample invoices, we project that 18,723 invoices were released
    earlier than 7 days prior to the MOCAS due date without proper approval.

    According to DFAS system personnel, MOCAS did not release a cash managed
    invoice earlier than 7 days prior to the due date unless a manual override was
    performed. DFAS desk procedures allowed an invoice to be released manually if
    there was sufficient evidence that the invoice was entered incorrectly and would
    be late if paid on the MOCAS due date, or if there was further sufficient reason
    for making an early payment.

    As part of its Management Control Program, DFAS Columbus initiated a policy
    to review the daily report of invoices that had been released from cash
    management early and to determine if there was proper justification for the early
    release. We looked at the supporting evidence for early release for one MOCAS
    directorate. DFAS maintained over 200 early release forms for the West
    directorate for FY 2004. However, we only found one release form related to our
    sample items. DFAS Columbus stated that the other two directorates maintain
    electronic copies of their early release forms, but we could not find any related to
    our sample items. DFAS Columbus should perform additional analysis to
    determine if the invoices were released early by MOCAS or were manually
    released. DFAS Columbus needs to take the necessary corrective action to
    prevent future unapproved early releases of invoices.


Effect of Noncompliance
    As a result of DFAS Columbus noncompliance with the Prompt Payment Act, we
    project that DFAS Columbus incurred about $1.8 million in total interest errors
    on 36,239 invoices. The errors are related to the underpayment of interest, the
    overpayment of interest, and Federal interest lost due to early payments in
    FY 2004.


                                         13
    The projected $1.8 million in total interest errors is related to $801 thousand of
    underpayments, $49 thousand of overpayments, and $919 thousand of Federal
    interest lost that we statistically projected. Table 8 shows the interest dollar
    errors for our 900 sample invoices.

            Table 8. Interest Dollar Errors Related to Our Sample
                                                       Projected Dollar
                                                                 Errors
        Underpayment of Interest                              $800,745
        Overpayment of Interest                                 48,866
        Federal Interest Lost                                  919,073
        Total Interest Errors                               $1,768,684



    In calculating the overpayment and underpayment of interest, we used the
    applicable daily interest rate for each invoice. We then subtracted the amount of
    interest actually paid on the invoice to arrive at the error. The projected Federal
    interest lost amount is based on the Treasury Current Value of Funds rate. We
    calculated the error in interest by taking the disbursement dollar value of the
    invoice and multiplying that by the applicable interest rate or current value of
    funds rate.

    Although we project that DFAS Columbus made errors on 61,470 invoices,
    interest errors only occurred on 36,239 of the total projected invoices. The
    noncompliance and resulting interest errors primarily resulted from DFAS not
    selecting the correct invoice receipt date or not correctly calculating the due date
    on the estimated 61,470 invoices. If controls governing compliance with the
    Prompt Payment Act are not corrected, DFAS Columbus will continue to pay a
    significant number of invoices incorrectly and violate the provisions of the
    Prompt Payment Act.


Recommendations, Management Comments, and Audit
  Response
    We recommend that Director, Defense Finance and Accounting Service
    Columbus direct:

          a. The Prompt Payment Branch to implement policies and controls in
    accordance with the Prompt Payment Act. Specifically:

                 1. Direct that the due dates that fall on a weekend or holiday
    not be moved to the following business day for calculating the interest
    payment.



                                         14
Management Comments. DFAS Columbus concurred with the recommendation
and stated that they will prepare a System Change Request to update the Prompt
Pay application accordingly.

             2. Direct that the payment date for Electronic Fund Transfer
payments be the following business day after the Mechanization of Contract
Administration Service processed date.

Management Comments. DFAS Columbus concurred with the recommendation
and stated that they will prepare a System Change Request to update the Prompt
Pay application to use the day after the MOCAS processed date as the payment
date for EFT payments.

              3. Ensure that additional training is provided related to
selecting proper invoice receipt dates and acceptance dates.

Management Comments. DFAS Columbus concurred with the recommendation
and stated that they will provide refresher training for all Entitlement technicians
on procedures related to selecting proper invoice receipt dates and acceptance
dates.

Audit Response. Management’s comments were partially responsive. Although
DFAS Columbus concurred with the recommendation, training in selecting proper
invoice receipt dates and acceptance dates needs to be provided to Prompt
Payment Interest Branch personnel also. Therefore, we request that DFAS
Columbus provide additional comments in response to the final report identifying
actions to provide training to Prompt Payment Interest Branch personnel.

       b. The Mechanization of Contract Administration Service systems
personnel to determine compliance with the Prompt Payment Act.
Specifically:

              1. Ensure that all improper invoices received before the
proper invoices that are returned after the allowable 7-day window are
factored in the due date.

Management Comments. DFAS Columbus concurred with the recommendation
and stated that they will provide refresher training to Entitlement technicians on
procedures related to returning improper invoices within the proper 7 day
window. Additionally, DFAS will ensure that when invoices are not returned
within 7 days, the payment due date will be reduced by the appropriate number of
days for all occurrences. Management will take action on the processing of
improper invoices with continuous refresher training and by enforcing the timely
return of invoices. Management will also add this function as a goal to the
Federal Manager’s Financial Integrity Act standardized matrix and will evaluate
the goal quarterly.

Audit Response. Management’s comments were not responsive. Although
DFAS Columbus concurred with the recommendation, providing refresher
training to Entitlement technicians will not correct the weakness. DFAS
Columbus needs to implement a MOCAS system change to account for days


                                     15
related to all improper invoices to ensure that all late payments are identified and
provided to the Prompt Payment Interest Branch for further review. Therefore,
we request that DFAS Columbus provide additional comments in response to the
final report identifying actions to update MOCAS to account for all improper
invoices.

              2. Ensure that after the proper invoice is received, improper
invoices are not factored in the due date.

Management Comments. DFAS Columbus concurred with the recommendation
and stated that they took corrective action to put processes in place to identify
potential duplicate invoices for subsequent research. Management will also
address the issue during its upcoming refresher training.

              3. Ensure that the Mechanization of Contract Administration
Service process for calculating due dates is operating effectively.

Management Comments. DFAS Columbus concurred with the recommendation
and stated that they will monitor the MOCAS process to ensure that due dates are
calculated properly. Management will add this function as a goal to the Federal
Manager’s Financial Integrity Act standardized matrix and will perform a
quarterly review to ensure due dates are calculated correctly.

              4. Ensure that all invoices paid after the payment due date are
included in the report sent to the Prompt Payment Interest Branch for
further analysis.

Management Comments. DFAS Columbus concurred with the recommendation
and stated that the MOCAS Systems Branch will perform additional analysis of
late payments by comparing a listing of payments made after the due date to the
report sent to the Prompt Pay Branch to determine if late payments are made that
are not included in the Prompt Pay Report. Management will make changes to
the Prompt Pay Report as necessary.

      c. Entitlement, Customer Service, and Tier II personnel are
adequately trained in determining the correct receipt dates to enter into
MOCAS.

Management Comments. DFAS Columbus concurred with the recommendation
and stated that they will provide refresher training to Tier II and Entitlement
technicians on procedures related to determining the correct receipt dates to enter
into MOCAS. Management will also ensure that similar training is provided to
Customer Service representatives.

       d. Defense Finance and Accounting Service Columbus systems’ and
Entitlement personnel to determine why invoices are released earlier then 7
days prior to the due date and to take action to ensure that controls are in
place to prevent the early release without proper approval and
documentation.




                                     16
Management Comments. DFAS Columbus concurred with the recommendation
and stated that a higher level of authorization will now be required for early
release of payments. The new procedure only allows the Chief of the Entitlement
Division or the Director of Contract Pay Operations to release payments early
based on supporting documentation received from a Contracting Officer.
Management will perform a periodic review to compare the early release
authorizations in MOCAS to the supporting documentation previously scanned
into the Electronic Document Management system. Management will also add
the approval authority and review functions to the Federal Manager’s Financial
Integrity Act matrix for the Director of Contract Pay Operations and has added
them to the matrix for the Chief of the Entitlement Division.




                                  17
Appendix A. Scope and Methodology
   We requested all invoices paid in MOCAS for FY 2004. We received this
   information with the disbursement amount by Accounting Classification
   Reference Number. We then divided the invoices that were potentially early, on
   time, and late based on the MOCAS receipt date and MOCAS processed date.
   Our statisticians developed a random sample of each of these populations. For
   each sample invoice, we determined, through scanned hard copy documents and
   MOCAS data, whether the invoice was paid in accordance with the Prompt
   Payment Act. Specifically, we verified that the invoice receipt date, acceptance
   date, payment date, and payment due date were correct. For those invoices that
   were paid later then the payment due date, we determined whether the correct
   amount of interest was paid. For those invoices that were paid earlier than 7 days
   prior to the payment due date, we verified whether the payment was authorized.
   We also calculated the interest due or interest lost by taking the disbursement
   dollar value and multiplying the number of days the invoices was early or late.
   We then multiplied that amount by the appropriate daily interest rate. For those
   invoices that showed interest payments, we compared our calculated interest and
   the actual interest paid to determine the amount of overpayment or underpayment.


   We performed this audit from October 2004 through November 2005 in
   accordance with generally accepted government auditing standards.

   We did not verify that MOCAS system data, such as type of acceptance or kind of
   contract, was accurate.

   Use of Computer-Processed Data. We used computer-processed data obtained
   from the MOCAS system to determine the universe of contractor invoices and
   acceptance information. We did not perform a formal reliability assessment of
   the computer-processed data. However, we examined additional supporting
   documents available from DFAS Columbus to verify the existence of contractor
   invoices and the accuracy of payments made. We did not rely on MOCAS for
   invoice receipt dates. Our results were not negatively affected by not performing
   a formal reliability assessment of MOCAS.
   Use of Technical Assistance. We obtained assistance from our Quantitative
   Methods Division to obtain our sample and to project our sample results. See
   Appendix B for their detailed methodology.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the financial management high-risk area.




                                       18
Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG),
    has issued one report discussing DFAS Columbus compliance with the Prompt
    Payment Act. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2004-058, “Early Payment of Invoices by the Defense
    Finance and Accounting Service Columbus,” March 12, 2004




                                       19
Appendix B. Statistical Methodology
   Universe of Cash Managed Sample. The universe data for cash managed
   invoices paid in FY 2004 through MOCAS was $34.7 billion. We selected
   300 sample items from each category. We used a simple random sample design
   for sample selection in each population. We determined that 300 items would be
   an appropriate sample size for an attribute projection based on our calculations, a
   what-if analysis we had performed, and our professional judgment. Samples were
   selected without replacement and without regard to dollar value of the item. We
   used the random number capabilities in SAS version 9.1 to generate the random
   sample. See Table B-1 for our sample size and universe dollars.

                               Table B-1. Universe and Sample Size
                                  Sample        Sample    Population
         Sample                     Size        Dollars      Size    Population Dollars
         Early Invoices            300        $21,545,519   75,211 $ 4,503,128,396
         On Time Invoices          300        $17,194,951 488,489 $28,433,890,498
         Late Invoices             300        $32,704,995   13,422 $ 1,834,028,178


   Projection of Sample. Based on the audit results, our statisticians calculated the
   statistical projections in Table B-2 using the exact binomial model. The exact
   binomial model produces asymmetrical upper and lower bounds with a 95 percent
   confidence interval.

         Table B-2. Projection of Samples with a 95 Percent Confidence Interval

                                                             Lower          Point        Upper
         Control Error                                       Bound         Estimate      Bound
         Prompt Payment Interest Branch                      3,980          4,705          5,470
         MOCAS System                                        7,430         15,871         24,313
         Invoice Input                                      12,304         24,530         36,755
         Early Release                                      14,511         18,723         22,934
         Number of Invoices with Control
           Errors                                           47,101          61,470*        75,839
         *For 7 invoices, the Prompt Payment Interest Branch both incorrectly adjusted the due date
          and incorrectly determined the payment date




                                            20
The statisticians also projected the dollar errors in Table B-3 at a 95 percent
confidence level across all samples. Additionally, they projected the total number
of invoices with interest errors in Table B-4 at a 95 percent confidence level
across all samples.

                Table B-3. Projection of Dollar Value Errors with a
                          95 Percent Confidence Interval

                                              Lower           Point     Upper
      Type of Error                           Bound          Estimate   Bound
      Underpayment                           $349,772       $800,745 $1,251,719
      Overpayment                               6,531         48,866     91,202
      Interest Lost                           174,888        919,073 1,663,258
      Absolute Error                         $899,288     $1,768,684 $2,638,081




                          Table B-4. Projection of Invoices
                          with Dollar Value Errors with a 95
                             Percent Confidence Interval

                           Lower          Point         Upper
                           Bound         Estimate       Bound
                           25,042         36,239      47,436




                                    21
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          22
Defense Finance and Accounting Service
Columbus Comments




                      23
24
25
26
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

James L. Kornides
Mark Starinsky
Lisa S. Sherck
Amber M. B. White
Rebecca J. Thompson
James Hartman
Lusk F. Penn
